                        U.S. COMMODITY FUTURES TRADING COMMISSION
                                             Three Lafayette Centre
                                  1155 21st Street, NW, Washington, DC 20581
                                          Telephone: (202) 41 8-511 0
                                           Facsimile: (202) 418-5522



   Office of the
Inspector General




                                         MEMORANDUM


     TO:             Gary Gensler, Chairman

     FROM:           A. Roy Lavik, Inspector GeneraQ      {(   ~
     DATE:           October 3 1,201 3

     SUBJECT:        Customer Protection Fund Financial Statement Audit Report


    This memorandum transmits the Commodity Futures Trading Commiss ion's Office of the
    Inspector General's (OIG) report on the financial statement for the CFTC's Customer Protection
    Fund. The OIG contracted with an independent public accounting firm Williams, Adley &
    Company-DC, LLP to conduct this audit which we monitored and reviewed. We concur with
    Williams, Adley & Company's unqualified ("clean") audit opinion stated in the attached audit
    report.

    Should you have any questions regarding this report, please do not hesitate to contact me. We
    appreciate the courtesy and cooperation that you and your staff extended to my staff and
    contractors during this audit.



    Attachment
~l ' .,            WILLIAMS
l ! '-             ADLEY
                                        Independent Auditors' Report



Cha irman
U.S. Commodity Futures Trading Commission

Inspector Ge nera l
U.S. Commodity Futures Trading Commission

Report on the Financial Statements

We have audited the accompanying Balance Sheets of the Commodity Futures Trading Commission
Customer Protection Fund (CPF) as of September 30, 2013 and 2012, and the related Statements of Net
Cost, Changes in Net Position and Budgetary Resources for the years then ended (hereinafter referred to
as the financial statements).

Management's Responsibility for the Financial Statements

CPF management is responsible for the preparation and fair presentation of the financia l statements in
accord ance with accounting principles generally accepted in the United States of America; this incl udes
the design, implementation, and maintenance of intern al control relevant to the preparation and fair
present ation of financia l statements that are free from material misstatement, whether due to fraud or
error.

Auditor's Responsibility

Our responsibility is to express an opinion on t hese financial statements based on our audits. We
conducted our audits in accordance with auditing sta ndards generally accepted in the United States of
America and standards applicable to financia l statement audits contained in Government Auditing
Standards, issued by the Comptroller Genera l of the United States, and the Office of Management and
Budget (OMB) Bu lletin No. 14-02, Audit Requirements for Federal Financial Statements.          Those
standards and OMB Bu lletin No. 14-02 require that we plan and perform the audit to obtain reasonable
assurance about w hether the f inancial statements are free of material misstatements.

An audit involves performing procedures to obta in audit evidence about the amounts and disclosures in
the financia l stateme nts. The procedures se lected depend on th e auditor's judgment, including the
assessment of the risks of materia l misstatement of the financial statements, whether due to fraud or
error. In making those risk assessments, we considered internal control relevant to the CPF's
preparation and fair presentation of the fina ncia l statements in order to design audit procedures that
are appropriated in the circumstances, but not for the purpose of expressing an opinion on the
effectiveness of the CPF's internal control. Accordi ngly, we express no such opinion. An audit also
includes eva lu ating the appropriateness of accounting policies used and the reasonableness of
significant accounting estimates made by management, as well as evaluating t he overall presentation of
the financial statements

                                      WILLIAMS, ADLEY & COMPANY-DC, LLP
                            Certified Public Accountants I Management Consultants
       103015111 Street, NW, Suite 350 West • Washington, DC 20005 • (202) 371-1397 • Fax: (202) 371 -9161
                                              www.wllliamsadley.com
We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for
our audit opinion.

Opinion

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Customer Protection Fund as of September 30, 2013 and 2012, and its net cost,
changes in net position and budgetary resources for the fiscal years then ended, in conformity with
accounting principles generally accepted in the United States of America.

Other Information

The information in CPF's Annual Report to Congress and the Cash Flow Analysis are not a required part
of the financial statements, but are supplementary information required by the Dodd-Frank Wall Street
Reform and Consumer Protection Act. We have applied certain limited procedures, which consisted
principally of inquiries of management regarding the methods of measurement and presentation of this
information. However, we did not audit this information and, accordingly, we express no opinion on it.
                                                    I

Our audit was conducted for the purpose of forming an opinion on the basic financial statements ·of CPF
as a whole.

Other Reporting Required by Government Auditing Standards

In accordance with Government Auditing Standards, we have also issued our reports dated October 30,
2013, on our consideration of the CPF's internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, and other matters. The purpose of those
reports is to describe the scope of our testing of internal control over financial reporting and compliance
and the results of that testing, and not to provide an opinion on the internal control over financial
reporting nor on compliance. Those reports are an integral part of an audit performed in accordance
with Government Auditing Standards and should be read in conjunction with this report in assessing the
results of our audits.

     w~,A:.d' 't:S..a~~, U-t:t=>
Washington, D.C.
October 30, 2013
~l     f 'W WILLIAMS
l!        L. 1 ADLEY
               Independent Auditors' Report on Internal Control over Financial Reporting



Chairman
U.S. Commodity Futures Trading Commission

Inspector General
U.S. Commodity Futures Trading Commission

We have audited the Principal Statements (hereinafter referred to as the "financial statements") of the
Commodity Futures Trading Commission Customer Protection Fund (CPF) as of and for the years ended
September 30, 2013 and 2012, and have issued our report thereon dated October 30, 2013.

CPF management is responsible for establishing and maintaining effective internal control. In planning
and performing our audits, we considered the CPF's internal control over financial reporting by obtaining
an understanding of the CPF's internal control, determining whether internal controls had been placed in
operation, assessing control risk, and performing tests of controls as a basis for designing our audit
procedures for the purpose of expressing our opinion on th e financial statements but not to express an
opinion on the effectiveness of the CPF's internal control over financial reporting. Accord ingly we do not
express an opinion on the effectiveness of the CPF's internal control over financial reporting. We limited
our internal control testing to those controls necessary to achieve the objectives described in the Office
of Management and Budget {OMB) Bulletin No. 14-02, Audit Requirements for Federal Financial
Statements, as amended. We did not t est all internal controls relevant to operating objectives broadly
defined by the Federal Managers' Financial Integrity Act of 1982 such as those controls relevant to
ensuring efficient operations.

Our consideration of internal control over fin ancia l reporting was for the limited pu rpose described in the
preceding paragraph and would not necessarily identify all deficiencies in the internal control over
financial reporting that might be significant deficiencies or material weaknesses.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a cont rol deficiency, or combination of control
deficiencies that adversely affects the CPF's ability to initiate, authorize, record, process, or report
financial data reli ably in accordance with accounting principles ge nera lly accepted in the United States of
America such that there is more than a remote likelihood that a misstatement of the CPF's principal
financial statements that is more than inconsequential w ill not be prevented or det ected by the CPF's
internal control. A material weakness is a significant deficiency, or combination of significant deficiencies,
that results in more than a remote likelihood that a material misstatement of the financial statements will
not be prevented or detected.




                                       WILLIAMS, ADLEY & COMPANY-DC, LLP
                             Certified Public Accountants I Management Consultants
        1030 15"' Street, NW, Suite 350 West • Washington, DC 20005 • (202) 371-1397 • Fax: (202) 371 -9161
                                              www.willlamsadley.com
In our fiscal year 2013 audit, we did not identify any deficiencies in internal control over financial reporting
that we consider to be material weaknesses, as defined above.

This report is intended solely for the information and use of management of the Customer Protection
Fund, OMB, U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and
should not be used by anyone other than these specified parties.

       t...O'-eltt- .. o,Acd 1 ~.a~~.,L.J-?

Washington, D.C.
October 30, 2013
~l     f 1-11 WILLIAMS
l ! ._ 1           ADLEY
                    Independent Auditors' Report on Compliance and Other Matters


Chairman
U.S. Commodity Futures Trading Commission

Inspector Genera l
U.S. Commodity Futures Trading Commission

We have audited the Principal Statements (h ere inafter referred to as the "financial statements") of the
Commodity Futures Trading Commission Customer Protection Fund (CPF) as of and for the year ended
September 30, 2013 and 2012, and have issued our report t hereon dated October 30, 2013. We
conducted our audit in accordance with auditing standa rds generally accepted in the United States of
America; standards applicable to financial audits contained in Government Auditing Standards, issued by
the Comptroller General of the United States; and Office of Management and Budget (OMB) audit
guidance .

The management of the CPF is responsible for complying with laws and regulations that are applicable to
the CPF. As part of obtaining reasonable assurance about whether the CPF's financial stat ements are free
of material misstatement, we perfo rm ed tests of the CPF's compliance with certain provisions of laws and
regulations including but not limited to the Dodd-Frank Wa ll Street Reform and Consumer Protection Act,
Accountability for Tax Dollars Act, Federal Managers' Financial Integrity Act, and the Anti-Deficiency Act
noncompliance w ith wh ich could have a direct and material effect on the determ ination of the financial
statements amounts, and certain provisions of other laws and regulations specified in the Office of
Management and Budget (OM B) Bu lletin No. 14-02, Audit Requirements for Federal Financial Statements,
as amended. We limited our tests of compliance to the provisions described in the preceding sentence,
and we did not test compliance with all laws and regulations applicable to t he CPF. However, providing
an opinion on compliance with those provisions was not an objective of our audit, and accordingly, we do
not express such an opinion.

The results of our tests of compliance described in the preced ing paragraph of th is report disclosed no
instances of noncompliance or other matters that are required to be reported under Government Auditing
Standards and OMB Bulletin No. 07-04.

The report is intended solely for the inform ation and use of the management of the CPF, OMB, the U.S.
Government Accountab ility Office, and the U.S. Congress and is not intended to be and should not be
used by anyone other than th ese specified parties.

     w~.~a~~,u-<?

Washington, D.C.
October, 30 2013




                                     WILLIAMS, ADLEY & COMPANY-DC, LLP
                            Cerlified Public Accountants I Management Consultants
       1030 15th Street, NW, Suite 350 West • Washington, DC 20005 • (202) 371 -1397 • Fax: (202) 371-9161
                                              www.wllliamsadiey.com
FINANCIAL STATEMENTS FOR THE
  CUSTOMER PROTECTION FUND
     REPORT TO CONGRESS

     As of September 30, 2013
                           U.S. Commodity Futures Trading Commission
                 Customer Protection Fund Report to Congress: Financial Statements


Table of Contents
Financial Statements ....................................................................................................................... 3 
Notes to the Financial Statements ................................................................................................... 7
Supplementary Schedule:
              Cash Flow Analysis……………………………………………… …………………...11 




                                                                      2
                                     Commodity Futures Trading Commission
                                           Customer Protection Fund
                                                 Balance Sheets
                                       As of September 30, 2013 and 2012



                                                                             2013                2012
Assets
Intragovernmental:
1             Fund Balance With Treasury (Note 2)                        $     4,983,233     $    22,904,529
2             Investments (Note 3)                                            95,000,000          77,135,901
6             Total Intragovernmental                                         99,983,233         100,040,430
Total Assets                                                             $    99,983,233     $   100,040,430



Liabilities
Intragovernmental:
17B.       Accounts Payable                                                           100                    -
20            Total Intragovernmental                                                 100                    -

Accounts Payable                                                                    60,016                   -
Accrued Funded Payroll                                                              18,826              43,681
Total Liabilities                                                                   78,942              43,681



Net Position
32            Cumulative Results of Operations - Dedicated Collections        99,904,291          99,996,749
Total Net Position                                                            99,904,291          99,996,749
Total Liabilities and Net Position                                       $    99,983,233         100,040,430


The accompanying notes are an integral part of these financial statements.




                                                                   3
                          Commodity Futures Trading Commission
                                 Customer Protection Fund
                                   Statements of Net Cost
                     For the Years Ended September 30, 2013 and 2012




Net Costs (Note 5)                                                     2013                 2012


Gross Costs                                                   $              960,397    $    479,789
Less: Earned Revenue                                                         (50,504)         (12,918)
Total Net Cost of Operations                                  $              909,893    $    466,871


The accompanying notes are an integral part of these financial statements.




                                                          4
                                   Commodity Futures Trading Commission
                                          Customer Protection Fund
                                    Statements of Changes in Net Position
                              For the Years Ended September 30, 2013 and 2012




                                                                                 2013                  2012

Cumulative Results of Operations


Beginning Balances, October 1                                                $    99,996,749       $    23,755,000

Budgetary Financing Sources
Other Financing Sources:
    Transfers-In/Out Without Reimbursement (+/-)                                        817,435         76,708,620

Net Cost of Operations                                                              (909,893)             (466,871)

Net Change                                                                              (92,458)        76,241,749


Total Cumulative Results of Operations as of Reporting Date                  $    99,904,291       $    99,996,749


Net Position, September 30                                                   $    99,904,291       $    99,996,749


The accompanying notes are an integral part of these financial statements.




                                                                    5
                        Commodity Futures Trading Commission
                                Customer Protection Fund
                           Statements of Budgetary Resources
                   For the Years Ended September 30, 2013 and 2012



                                                                             2013                2012


BUDGETARY RESOURCES
Unobligated Balance, October 1                                          $     99,996,749    $    23,755,000
  Authority Unavailable for Oblig, Pursuant to P.L.                             (663,000)                 -
Spending Authority from Offsetting Collections                                   867,940         76,721,538
Total Budgetary Resources                                               $    100,201,689    $   100,476,538
STATUS OF BUDGETARY RESOURCES
Obligations incurred                                                    $      1,214,988    $      479,789
Unobligated Balance, end of period
   Apportioned                                                                11,541,880         12,558,748
   Unapportioned                                                              87,444,821         87,438,001
Total Unobligated Balance, September 30                                       98,986,701         99,996,749
Total Status of Budgetary Resources                                     $    100,201,689    $   100,476,538
CHANGE IN OBLIGATED BALANCES
Unpaid Obligations, October 1 (gross)                                   $         43,681    $             -
  Obligated balance October 1 (net)                                     $         43,681    $             -
Obligations Incurred                                                           1,214,988            479,789
Outlays (gross)                                                                 (925,136)          (436,108)
Net Obligated balance, end of period                                    $        333,533    $        43,681
    Unpaid Obligations, end of year (gross)                                     333,533             43,681
Net Obligated Balance, September 30                                     $       333,533     $       43,681
NET BUDGET AUTHORITY AND OUTLAYS
Budget Authority, Gross                                                 $       204,940     $    76,721,538
Actual offsetting collections                                                   (867,940)       (76,721,538)
Budget Authority, Net                                                   $       (663,000)   $             -
Outlays (gross)                                                                  925,136            436,108
Actual offsetting Collections                                                   (867,940)       (76,721,538)
NET OUTLAYS                                                             $         57,196    $   (76,285,430)


The accompanying notes are an integral part of these financial statements.




                                                        6
                               Notes to the Financial Statements
                       For the Years Ended September 30, 2013 and 2012

Note 1. Summary of Significant Accounting Policies

A. Reporting Fund
The Commodity Futures Trading Commission (CFTC or the Commission) is an independent agency of the
executive branch of the Federal Government. Its mission is to “protect market users and the public from
fraud, manipulation, and abusive practices related to the sale of commodity futures and options, and to
foster open, competitive, and financially sound commodity futures and options markets.”
On July 21, 2010, the “Dodd-Frank Wall Street Reform and Consumer Protection Act” (the Dodd-Frank
Act, or the Act) was signed into law, significantly expanding the powers and responsibilities of the CFTC.
According to Section 748 of the Act, there is established in the Treasury of the United States a revolving
fund known as the “Commodity Futures Trading Commission Customer Protection Fund” (the Fund).
The Fund shall be available to the Commission, without further appropriation or fiscal year limitation, for
a) the payment of awards to whistleblowers; and b) the funding of customer education initiatives designed
to help customers protect themselves against fraud or other violations of this Act or the rules and
regulations thereunder.
The Act requires CFTC to transmit to the Committee on Agriculture, Nutrition and Forestry of the Senate,
and the Committee on Agriculture of the House of Representatives a report which includes a complete set
of audited financial statements and supplementary information, including balance sheet, income
statement, and cash flow analysis, no later than October 30, of each year.

B. Basis of Presentation
The financial statements have been prepared to report the financial position and results of operations for
the Fund, as required by the Dodd-Frank Act. These statements have been prepared from the Fund’s
books and records, which are a component of the Commission’s books and records, in conformity with
U.S. generally accepted accounting principles (GAAP), as prescribed for the federal government by the
Federal Accounting Standards Advisory Board (FASAB) and in accordance with the form and content
requirements contained in Office of Management and Budget (OMB) Circular No. A-136, “Financial
Reporting Requirements,” as amended.

The Fund was established in July 2010 and funded by transfers from CFTC’s Civil Monetary Penalties,
Fines and Administrative Fees receipt account. These transfers do not meet the criteria of reportable
revenue as defined by the Statement of Federal Financial Accounting Standards (SFFAS) Number 7,
“Accounting for Revenue and Other Financing Sources and Concepts for Reconciling Budgetary and
Financial Accounting.”
The financial statements report on the Fund’s financial position, changes in net position, net cost and
budgetary resources. The books and records of the Fund served as the source of information for preparing
the financial statements in the prescribed formats. All Fund financial statements and reports used to
monitor and control financial resources are prepared from the same books and records. The statements
should be read with the understanding that they relate to a fund controlled by CFTC, a component of the
U.S. Government, a sovereign entity.
The Balance Sheet presents the financial position of the Fund. The Statement of Net Cost presents the
Fund’s operating results. The Statement of Changes in Net Position displays the changes in the Fund’s net
position, and the Statement of Budgetary Resources shows the spending authority of the fund derived
from the deposits eligible from civil monetary collections.

C. Fund Balance with Treasury

Fund Balance with Treasury is the aggregate amount of the Fund’s balance with the U.S. Treasury. The
balance in the Fund is available to pay current liabilities and finance authorized operations.


                                                    7
The Fund does not maintain bank accounts of its own, has no disbursing authority, and does not maintain
cash held outside of Treasury. Treasury makes disbursements for the Fund.

D. Investments in U.S. Government Securities
The CFTC has authority to invest amounts in the Customer Protection Fund in market based U.S Treasury
securities. The interest earned on the investments is a component of the Fund and is available to be used
for expenses of the Fund. Additional details regarding Customer Protection Fund investments are
provided in Note 3. Investments.

Market-based Treasury securities are debt securities that the U.S. Treasury issues to Federal entities
without statutorily determined interest rates. Although the securities are not marketable, the terms
(prices and interest rates) mirror the terms of marketable Treasury securities.

E. Liabilities
The Fund’s liabilities consist of actual and estimated amounts that are likely to be paid as a result of
transactions covered by the Whistleblower Incentives and Protection regulation, and will be paid from
available balances remaining in the Fund. In addition, the salaries and operating expenses of the
Whistleblower’s Office and Consumer Outreach Office were funded through the Fund. Liabilities totaled
$78,942 and $43,681 as of September 30, 2013 and 2012 respectively. The Fund’s liabilities are
considered current liabilities.

F. Dedicated Collections
The Fund contains dedicated collections that can only be used to operate a whistleblower program and
support customer education initiatives. See Note 1.A. for a description of the purpose of the Fund and its
authority to use the revenues and other financing sources. Deposits into the Fund are credited from
monetary sanctions collected by the Commission in covered judicial or administrative actions not
otherwise distributed to victims of a violation of the Dodd-Frank Act or the rules and regulations
underlying such action, unless the balance of the Fund at the time the monetary judgment is collected
exceeded $100 million. No new legislation was enacted as of September 30, 2013 that significantly
changed the purpose of the dedicated collections or redirected a material portion of the accumulated
balance.

G. Revenues and Other Financing Sources
The CFTC Customer Protection Fund is funded through monetary sanctions resulting from judicial or
administrative action brought by the Commission under the Commodity Exchange Act. All collections are
deposited into a receipt account. Eligible collections are transferred into the Fund from the CFTC’s Civil
Monetary Penalties, Fines and Administrative Fees receipt account.
Congress enacted the Dodd-Frank Act that provides the CFTC with the authority to establish the Fund.
The Fund is available to the Commission, without further appropriation or fiscal year limitation. These
funds are considered financing sources under U.S. Treasury Department guidelines. Per the Act, no
sanction collected by the Commission can be deposited into the Fund if the Fund’s balance exceeds $100
million. The CFTC may request the Secretary of the Treasury to invest Fund amounts in Treasury
obligations. Eligible collections were deposited into this new Fund during fiscal years 2013 and 2012.

H. Intra- and Inter-Agency Relationships
The CFTC is an independent federal agency. The Commodity Futures Trading Commission Customer
Protection Fund is a fund within the CFTC, and these financial statements present a segment of the CFTC
financial activity. The financial events of the Fund are consolidated into the CFTC annual financial
statements.

I. Use of Management Estimates
No management estimates were used to prepare these financial statements.


                                                    8
J. Limitations of the Financial Statements
The principal financial statements included in this report have been prepared to report the financial
position and results of operations of the Fund, pursuant to the requirements of Section 748 of the Dodd-
Frank Consumer Protection Act. While the statements have been prepared from the books and records of
the CFTC in accordance with GAAP for federal entities, the statements are in addition to the reports used
to monitor and control the financial activity of the CFTC, which are prepared from the same books and
records. The statements should be read with the understanding that they are for the Customer Protection
Fund, a single fund within the CFTC.

Note 2. Fund Balance with Treasury

The Fund Balance with Treasury by type of fund and Status of Fund Balance with Treasury as of
September 30, 2013 and 2012 consists of the following:

                                                                 2013                  2012

        Revolving Funds                                  $       4,983,233      $     22,904,529

        TOTAL FUND BALANCE WITH TREASURY                 $       4,983,233      $     22,904,529
        Revolving Funds
        Unobligated Fund Balance
            Av ailable                                   $       4,649,700      $     12,558,748
            Unav ailable                                                 -            10,302,100
        Obligated Balance Not Yet Disbursed                        333,533                43,681
        Total Revolving Funds                                    4,983,233            22,904,529
        TOTAL FUND BALANCE WITH TREASURY                 $       4,983,233      $     22,904,529



A. Reconciliation to Treasury
There are no differences between the fund balance reflected in the CPF Balance Sheet and the balance in
the Treasury Account.


B. Fund Balance with Treasury
Fund Balance with Treasury consists of collections of fines and penalties not owed to harmed investors.
Obligation of these funds is controlled by apportionments made by OMB. Until such funds are
apportioned by OMB, they are unavailable to be obligated.




                                                   9
Note 3. Investments

On June 1, 2012, the CFTC began investing funds in overnight non-marketable market-based Treasury
bills. Treasury overnight certificates of indebtedness are issued with a stated rate of interest to be applied
to their par amount, mature on the business day immediately following their issue date, are redeemed at
their par amount at maturity, and have interest payable at maturity. Non-marketable market-based
Treasury securities are issued by the Bureau of Public Debt to Federal agencies. They are not traded on
any securities exchange but mirror the prices of similar Treasury securities trading in the Government
securities market. Investments were $95 million and $77 million as of September 30, 2013 and 2012,
respectively.

Note 4. Contingencies

Unasserted claims are actions or potential actions the Commission is aware of in which future events may
result in claims against the fund.

As mentioned in Note 1.A. Reporting Fund, the Commodity Futures Trading Commission Customer
Protection Fund will be used to pay awards to whistleblowers if they voluntarily provide original
information to the CFTC that leads to the successful enforcement by the CFTC of a covered judicial or
administrative action in which monetary sanctions exceeding $1 million are imposed. Whistleblowers are
entitled to appeal any decisions by Commission in regards to claims made against the fund.

In accordance with Federal Accounting Standards, CFTC records contingent liabilities for any unasserted
claim in which payment has been deemed probable and for which the amount of potential liability can be
estimated. The Commission also discloses all claims for which payment is reasonably possible.

There were no unasserted claims deemed reasonably probably and measurable, or reasonably possible, as
of September 30, 2013 or 2012, respectively.

Note 5. Intragovernmental Costs

The Statement of Net Cost presents the Customer Protection Fund’s results of operations for the activities
to run the Whistleblower’s Office and Consumer Outreach Office.

Intragovernmental costs arise from the purchases of goods and services from other components of the
Federal Government (including other CFTC funds). In contrast, public costs are those which arise from
the purchase of goods and services from non-Federal entities. The Whistleblower’s Office and Consumer
Outreach Office incurred $215 thousand and $74 thousand in net intragovernmental costs and $695
thousand and $393 thousand in net costs with the public for the years ended September 30, 2013 and
2012, respectively.




                                                     10
                                                                                                 Supplementary Schedule

                                                  Commodity Futures Trading Commission
                                                          Customer Protection Fund
                                                             Cash Flow Analysis
                                         For the Period from October 1, 2012 to September 30, 2013



Cash as of October 1, 2012                                                                       $              22,904,529

Cash flows from (used) in operating activities
  Paid Expenses for WhistleBlower Office and Consumer Outreach Office       $        (925,136)
  Interest earned from investing in US Treasuries                                      50,504
  Net cash flows from operating activities                                                       $                (874,632)

Cash flows used in investing activities
  Investments in US Treasuries                                              $     (17,864,099)
  Net cash flows from investing activities                                                       $             (17,864,099)

Cash flows from financing activities
  Transfers in from Civil Monetary Sanctions                                $         817,435
  Net cash flows from financing activities                                                       $                817,435

Net increase/(decrease) in cash and cash equivalents                                             $             (17,921,296)

Cash as of September 30, 2013                                                                    $               4,983,233




                                                                  11
